                                                        NATIONAL SCIENCE FOUNDATION
                                                         OFFICE OF INSPECTOR GENERAL
                                                           OFFICE OF INVESTIGATIONS

                                                  CLOSEOUT MEMORANDUM

 Case Number: A-09090072                                                                          Page 1 of 1



              We received allegations concerning the Biosketch and Current and Pending Support (CPS) forms in
              the subject'sI NSF Proposals. 2 Our review suggested the subject submitted proposals to different
              programs at NSF and did not include the same information in a consistent manner on the forms that
              he sent to different programs as he should have. There was also a suggestion the subject may have
              presented information that was factually incorrect and/or misleading.

          We wrote to the subject's institution and a private company he worked for to obtain specific
          information concerning his employment history, salary and records of NSF proposal submissions.
          After receiving and reviewing the information, we determined that the subject had not materially
          misrepresented any information in these forms. However, in closing out this matter, we sent the
          subject a letter setting forth the concerns raised, and strongly suggesting that he take care to .ensure
          that any future proposals are complete and accurate.

              This case is closed and no further action will be taken.




         (;



NSF OIG Form 2 (I 1/02)
